No. 20-6310

In the Supreme Court of the United States
DEAN PHILLIP CARTER, Petitioner,
v.
RON BROOMFIELD, , Respondent.

CERTIFICATE OF SERVICE BY ELECTRONIC MAIL

I, Annie Featherman Frasier, Deputy Attorney General, a member of the Bar of
this Court hereby certify that on January 13, 2021, a copy of the BRIEF IN
OPPOSITION in the above-entitled case was served by e-mail to:
Celeste Bacchi
Email: Celeste_Bacchi@fd.org
(Attorney for Petitioner)
I further certify that all parties required to be served have been served.
s/ Annie Featherman Fraser
ANNIE FEATHERMAN FRASER
Deputy Attorney General
Office of the Attorney General
600 W. Broadway, Suite 125
P.O. Box 85266
San Diego, CA 92186-5266
Telephone: (619) 738-9137
Counsel for Respondent

